No, 20-7373
a

In The
Supreme Court of the Gnited States

 

CHRISTOPHER MATHEW PAYNE,
Petitioner,
Vv.
THE STATE OF ARIZONA,

Respondent.

 

ON PETITION FOR A WRIT OF CERTIORARI
TO THE SUPERIOR COURT OF ARIZONA,
PIMA COUNTY

 

CERTIFICATE OF SERVICE

 

I, Michael J. Meehan, counsel for Petitioner and a member of the Bar of this Court,
certify that on April 27, 2021 one copy of the Reply Brief of Petitioner on Certiorari
in this case was caused to be delivered by email, pursuant to stipulation of counsel
for service of process in this case, to Lacey Gard, Lacey.Gard@azag.gov, and Laura
Chiasson, Laura.Chiasson@azag.gov, Assistant Attorneys General, Criminal
Appeals/Capital Litigation Section, 400 W. Congress, Bldg. 8-315 Tucson, Arizona
85701-1367; and to cadocket@azag.gov. I further certify that all parties require to be

served have been served.

Michael J. Meehan

3938 E. Grant Rd. No. 423
Tucson, AZ 85712
Mmeehan.az@msn.com
520-529-1969
